CASE N21-20-5194

IN THE
UNITED STATES SUPREME COURT

IN RE: KEVIN DEWAYNE MOORE
PETITIONER

APPLICATION FOR THE ISSUANCE OF AN
ORIGINAL HABEAS CORPUS

PETITION FOR REHEARING
TO: JUSTICE AMY BARRETT

Petitioner, KEVIN DEWAYNE MOORE (Mr Moore), pro se, is presenting
this Petition for Rehearing, in GOOD FAITH. It is NOT any type of
delay tactic. The issue(s) presented, within this Petition, show that
Mr Moore has nowhere else to turn to, in order to get his Sixth
Amendment Constitutional violation into the court(s), to be corrected.
that it appears as if this Court has failed to uphold and/or has
violated its previous holding(s)/precedent(s), regarding Mr Moore's
Sixth Amendment violation factual claim. Mr Moore, who is NOT an
attorney, nor has he had the assistance of a trained/schooled/licensed
attorney, has presented this Petition to the best of his knowledge
and ability, in order to comply with this Court's Rule 44.

QUESTIONS PRESENTED
Does this Court's holding in PREMO v MOORE, 562 US 115 (2011), as
emphasized in LEE v US, 198 L Ed 2d 476 (2017), that "strict
adherence to the Strickland standard is 'ESSENTIAL'' when reviewing
claims about attorneys error 'at the plea bargain •stage.' Id at
125," as well as this Court's holding in MISSOURI v FRYE, 566 US
134 (2012) as well as in this Court s other cases, apply to
Petitioner i s claim of ineffective assistance of counsel and/or
counsel's deficient performance "at the plea bargain stage," of
this case, claim?
Does this Court violate its own precedent when a petitioner mets
or exceeds the requirement(s) for this Court to use its Original
Jurisdiction and issue an Original Habeas Corpus - when petitioner
has no other avenue available to present his Constitutional
violation claim, but fails to do so? Thus, allowing the Constitutional violation to remain uncorrected?
Did this Court violate its holding in MISSOURI v FRYE, 566 US
134 (2012), and/or LAFLER v COOPER, 566 US 156 (2012), when it
failed to hold Petitioner's court appointed counsel ineffective
and/or that counsel's performance was deficient - when counsel
failed to present, or to even inform Petitioner of, the government's formal plea bargain offer - SAME conduct/violation?
STATEMENT OF CASE
Mr Moore is presenting his factual claim of ineffective assistance
of counsel and/or that counsel's performance was deficient - at the
plea bargain stage of this case, due to counsel's failure to present,
or to even inform him of the existance of, the government's formal
plea bargain offer and factual resume, to him. That he discovered
this evidence YEARS AFTER his original 28 USC §2255 process had been
completed.
Mr Moore avers that he has no other avenue to present this Sixth
Amendment Constitutional violation , to the Court, without this
Court exercising its Original Jurisdiction and issuing an Original
Habeas Corpus. Otherwise, this Sixth Amendment Constitutional violation
will go uncorrected.
I
DOES THIS COURT'S HOLDING IN PREMO v MOORE, 562 US 115
(2012), AS EMPHASIZED IN LEE v US, 198 L Ed 2d 476
(2017), AS WELL AS IN THIS COURT'S OTHER CASES, APPLY
TO MR MOORE'S CLAIM OF INEFFECTIVE ASSISTANCE OF
COUNSEL?
Mr Moore avers that he presented his factual claim that his court

1

appointed lawyer provided ineffective assistance of counsel and/or
that counsel's performance was deficient - based on newly discovered
evidence that counsel failed to present, or to even inform Mr Moore
of the existance of, the government's formal plea bargain offer and
factual resume, to him.
This Court has failed to hold that Mr Moore's lawyer provided
ineffective assistance of counsel and/or that counsel's performance
was deficient, during the pretrial/plea bargain phase/stage of the
proceedings,lin this case.
In reviewing Mr Moore's claim, this Court MUST review it using the
"Strickland standard."
"In PREMO v MOORE, 562 US 115 (2011), the court emphasized that
'STRICT ADHERENCE' to the Strickland standard' is 'ESSENTIAL' when
reviewing claims about attorney error 'at the plea bargain stage.'
Id at 125." LEE v US, 198 L Ed 2d 476 (2017).
This Court's single word "denied," shows that this "review" did
not take place. Because if it had, with the undenied facts and
irrefutted documented evidence presented, the outcome of this case
would have been different.
THIS COURT in MISSOURI v FRYE, 566 US 134 (2012), held that FRYE'S
counsel was ineffective for the EXACT SAME CONDUCT as Mr Moore's
counsel.
"The court in MISSOURI v FRYE, 566 US 134...(2012), took a similar
approach. In THAT CASE, the court extended HILL to hold that counsel'
could be constitutionally ineffective for FAILING to communicate a
plea deal to a defendant. 566 US at 145." LEE, supra. Also see: HILL
v LOCKHART, 474 US 52 (1985)(Failure to provide effective assistance
during plea negotiations).
Mr Moore avers that the record shows that/he has adequately
demonstrated a reasonable probability that he would have entered into
plea negotiations, had his lawyer presented the government's formal
plea offer to him, (Petition, at pg 13).
The record shows that Mr Moore did, in fact, attempt to sign a plea
for 2-3 years. However, his court appointed lawyer REFUSED to present
this offer to the government. (Petition, at pg 13).
Mr Moore avers that not only is this Court's precedent - regarding
this type of Constitutional violation, well-established, but the
Second, Third, Fifth, Sixth, and Seventh Circuit's precedents are

2

also well-established.
"Attorneys are obligated to present plea offers to their clients
and WILL BE FOUND LACKING if they fail to do so." m [T]he negotiation
of a plea bargain is a critical phase of litigation of the Sixth
Amendment right to effective assistance of counsel.' UNITED STATES v
REEDY, 719 F 3d 369, at *2 (5th Cir 2013), quoting PADILLA v KENTUCKY,
559 US 356 (2010)." VALLADO v STEPHENS, SA-13-CA-196-XR (5th Cir
2013). Also see: BAKER v US, No 14-370(PGS) (3rd Cir 2019); GLOVER
v US, 531 US 198 (2001); COMPEAN v US, No 12-0730 (WD KY 2013); LINT
v PRELESNIK, No 09-10044 (ED MICH 2011); ROBINSON v US, 744 F Supp
2d 684 (ED MICH 2010); MAVASHEV v US, No 11-3724 (ED NY 2015);
JOHNSON v DUCKWORTH, 793 F 2d 898, 902 (7th Cir 1986)(Failure to
inform client of [plea] offer CONSTITUTES ineffective assistance of
counsel).
The record shows that Mr Moore presented facts and evidence Attachmant E(3), showing that the government presented his court
appointed lawyer with its formal plea bargain offer. (Petition, at
pg 12; Attachment E(3)).
The record shows that Mr Moore sent a request to the U.S. Attorney's
office, in Dallas, TX, in his attempt to obtain a copy of that plea
and factual resume. (Petition, at pg 13; Attachment G).
The record shows that he has NEVER received a response/reply to
that request. (Petition, at pg 13).
Mr Moore does not know what else to do. He has provided facts,
with supporting documented evidence and supporting Supreme Court, as
well as Circuit Court, holding(s)/precedent(s), proving this claim.
ALL to no avail.
Thus, Mr Moore's qustiori presented: Does this Court's holding(s)/
precedent(s), apply to his claim of ineffective assistance of counsel
and/or that counsel's performance was deficient - at the pretrial/
plea bargain stage/phase, of this case?
This Court has held that:
"These precedents are consistant with our cases governing the
right to effective assistance of counsel in other contexts. This court
has held that the right to effective counsel applies to ALL 'critical
stages of the criminal proceedings.' MONTEJO v LOIUSIANA, 566 US 778,
786...(200)." LEE, supra.
This Court has also held that:
"Where defendant shows ineffective
rejection of a plea leading to a more
remedy MUST 'neutralize the taint' of
UNITED STATES v MORRISON, 449 US 361,
566 US 156 (2012).

3

assistance has caused the
severe sentence at trial, the
a Constitutional violation,
365...(1981)." LAFLER v COOPER,

The record shows that Mr Moore has met or exceeded this Court's
requirement to show ineffective assistance of counsel and/or that
counsel's performance was deficient at the pretrial/plea bargain
stage, of this case. HOWEVER, this Court appears not to be willing to
apply its OWN holding(s)/precedent(s) to Mr Moore's case.
"The precedents of this Court warrant our deep respect as embodying
the considered views of those who have come before." RAMOS v LOUISIANA,
140 S Ct 1390 (4-20-20).
II
OWN PRECEDENT WHEN IT FAILED
ITS
VIOLATE
COURT
DID THIS
CORPUS, WHERE MR MOORE HAS
HABEAS
ORIGINAL
TO ISSUE AN
PRESENT HIS CONSTITUTIONAL
TO
AVAILABLE
AVENUE
NO OTHER
THUS, ALLOWING THIS
COURTS,
THE
TO
CLAIM
VIOLATION
GO UNCORRECTED?
TO
VIOLATION
CONSTITUTIONAL
The record shows that Mr Moore is NOT challenging the "validity"
of his sentence or conviction. The record shows that this "particular" claim of ineffective
assistance of counsel and/or that counse1:s performance was deficient
at the pretrial/plea bargain phase/stage, is NOT cognizable under 28
USC §2244(b)(2), 28 USC §2255(h), or even 28 USC §2241 - the way the
courts have held what the §2244 can be used for. (Petition, at pgs
7-12
The record shows that Mr Moore has attempted to present this Sixth
Amendment Constitutional violation claim !under the PLAIN, CONCISE, and
EXPRESS language in Fed.R.Civ.P. (FRCvP) Rule 15, or 59(e), or 60(b)
(2), or 60(b)(6), to the United- States District Court (USDC).
The record shows that the USDC would NOT allow/permit Mr Moore to
present this claim, as filed. (Petition, at pgs 6-7).
The jurisdiction of the Supreme Court extends to rights protected
by the Constitution, Treaties or Laws of the United States, from
whatever source these rights may spring. NEW ORLEANS v DeARMAS, 34
US 224 (1835).
The record shows that Mr Moore is petitioning this Court for the
issuance of an Original Habeas Corpus, because he has NO other avenue
available to present his Sixth Amendment violation claim. That the
exercise of jurisdiction by this court to protect the Constitutional
rights CANNOT be declined when it is plain that fair result of deci-,
®
ision is to delay. ROGERS v ALABAMA, 192 US 226 (1904).
Mr Moore avers that by denying the issuance of this Mabeas Corpus,
(Petition, at pg 10).
4

this Court has violated the above holding, in ROGERS, as this denial
has denied Mr Moore's Constitutional right to effective assistance of
counsel, during the pretrial/plea bargain phase/stage, of this case.
Mr Moore avers that not only are this Court's holding(s)/precedent(s)
well-established, but so are the Second, Tenth, and Eleventh Circuits.
"A federal prisoner may resort to §2241 to contest his conviction
if and only if the §2255 remedial mechanism is 'inadequate or ineffec
tive to test the legality of his detention.. 28 USC §2255(e)." PROST
v ANDERSON, 636 F 3d 578, 580 (CA10 2011). Also see: TREISTMAN v US,
124 F 3d 361, 377 (CA2 1977); WOFFORD v SCOTT, No 98-8297 (CA11 1999)
McCARTHAN v DIR OF GOODWILL INDUS - SUNCOAST, NO: 12-14989 (CA11 2017),
which held:
"A motion to vacate is inadequate or ineffective to test the
legality of a prisoner's detention only when [AS IN MR MOORE'S CASE]
it CANNOT remedy a particular kind of claim."
The record shows that this "particular kind of claim," CANNOT be
remedied, as it is NOT cognizable under 28 USC §§2244(b)(2), 2255(h),
or 2241. Therefore, it is up to this Court to issue an Original Habeas
Corpus to correct this Constitutional violation. Otherwise, it will
go uncorrected, in violation of this Court's holding(s)/precedent(s).
"In an opinion by Rehinquist, Ch, J., expressing the view of the
court, it was held that...the Act did not preclude the Supreme Court
from entertaining a habeas corpus petition filed as an original matter
in the Supreme Court." FELKER v TURNER, 518 US 651 (1996).
III
DID THIS COURT VIOLATE ITS OWN HOLDING IN MISSOURI V FRYE,
566 US 134 (2012) AND/OR LAFLER V COOPER, 566 US 156 (2012),
WHEN IT FAILED TO HOLD THAT PETITIONER'S COUNSEL WAS
INEFFECTIVE AND/OR THAT COUNSEL'S PERFORMANCE WAS DEFICIENT?
The record shows that on May 29, 2007, the prosecutor sent Mr
Moore's court appointed lawyer its formal plea bargain offer and
factual resume. (Petition, at pg 12; Attachmant E(3)).
The record shows that counsel FAILED to present, or to even inform
Mr Moore of the existance of, the government's formal plea offer.
(Petition, at pg 12).
THIS Court held, in MISSOURI V FRYE, 566 US 134, 182 L Ed 2d 379
(2012), that:
Decision: "Defense counsel!s allowing a plea offer to expire without
advising accused of offer HELD TO CONSTITUTE denial of effective
assistance REQUIRED under Federal Constitutionils Sixth Amendment."

5

The record shows that this is exactly what Mr Moore has presented
to the USDC; to this Court, in his Application for this Court to issue
an Original Habeas Corpus.
THIS Court further held, in FRYE:
"Defense counsel has the duty to communicate formal offers from
the prosecution." "That defense counsel in that case was deficient
in failing to communicate to the petitioner the prosecutor's formal
plea offer before it expired, where petitioner LEXACTLY AS MR MOORE
HAS DONE] produced a letter from the prosecutor [Attachment E(3)]
communicating that offer." (Petition, at pg 14).
Mr Moore avers that this Court is not permitted, through the
fundamental fairness of the judicial system, to pick and choose who
or which case they want to grant/apply its holding(s)/precedent(s) to
and to who or to which case to choose to violate its holdings on.
In GAMBLE v US, 139 S Ct 1960, 1969 (2019), this Court held:
"Stare decisis 'PROMOTES the evenhanded, predictable, and consistent developement of legal principles, fosters reliance on judicial
decisions, and contributes to the actual and perceived integrity of
the judicial process.' PAYNE v TENNESSEE, 501 US 808, 827(1991)."
"In Constitutional cases,I A DEPARTURE from precedent' DEMANDS
SPECIAL JUSTIFICATION.' ARIZONA v RUMSEY, 467 US 203, 212 (1984)."
This Court did NOT provide any "special justification" for its
failure to hold Mr Moore's attorney ineffective, for the EXACT SAME
REASON FRYE's attorney was.
This Court has HELD that:
"This court now holds that, as a general rule, defense counsel
has the duty to communicate formal offers from the prosecution. When
defense counsel allowed the offer to expire without advising the
defendant,..., defense counsel did not render the effective assistance
the Constitution requires." FRYE, supra, at 390, HN 9(Sotomayor, J.,
joined by Roberts, Ch. j., and Scalia, Kennedy, Thomas, Breyer,
Alito, and Kagan, JJ); HN_10 (SAME).
Mr Moore avers this Court has failed to uphold or has violated
its OWN holding/precedent, as shown in the above section. This
Court's precedent is well-established and should be respected and
upheld, AT ALL TIMES. RAMOS, supra.
IV
CONCLUSION
For any or all of the foregoing, Mr Moore prays that this Honorable
Court will reconsider its prior denial, and GRANT the Relief requested,

6

in his Application for the Issuance of an Original Habeas Corpus
[Petition, at pgs 21-22], and any/all other relief this Court deems
needed or necessary.
Respectfully submitted
, Head of State - House of Moore,
1 il."--....--.
BY:LS:1Lk-(Kevin Dew yne: Moore)
Est '80, Secured Creditor, D/B/A: KEVIN DEWAYNE MOORE: CEO, American
National, Oklahoma National, in esse, sui juris, legalis homo,
without prejudice, without recourse.
Date: October 28, 2020
The Four Corners of this Petition for Rehearing are under the Highest
level of Knowledge, Truth, and Fact, as scribed and dated hereunder,
thereof; Kevin Dewayne: Moore, Secured Creditor, D/B/A: KEVIN DEWAYNE:
MOORE: CEO, American National, Oklahoma National, in esse, sui juris,
legalis homo. Given under the Penalty of Perjury.
Date:
BY:LS:

f

October 28, 2020

Head of state - House of Moore,

!

(Kevin Dewa ne: Moore)
Est '80, Secured Creditor: D/B/A: KEVIN DEWAYNE MOORE: CEO, American
National, Oklahoma National, in esse, sui juris, legalis homo„
without prejudice, without recourse.
Date:

October 28, 2020

NO FURTHER ENTRIES THIS PAGE

7

CERTIFICATE OF MAILING
I, KEVIN DEWAYNE MOORE, hereby declare that a True and Correct
copy of this Petition for Rehearing, presented to Justice Barrett,
was provided to the Clerk of the Court on this
day of October,
2020, by placing such in the inmate outgoing legal mail system with
first class postage affixed to it and mailed Certified Mail to the
address listed below.
Date: October 28, 2020
, Head of State - House of Moore,
(Kevin Dew yne: Moore)
Est '80, Secured Creditor, D/B/A: KEVIN DEWAYNE MOORE: CEO, American
National, Oklahoma National, in esse, sui juris, legalis homo,
without prejudice, without recourse.
RE: S Ct case no: 20-5194
U.S. SUPREME COURT
CLERK OF THE COURT
1 FIRST STREET NW
WASHINGTON, DC 20543
CERTIFIED MAIL RECEIPT NUMBER:
7018 0680 0000 9554 3046

NO FURTHER ENTIRES THIS PAGE

8

